HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in West
Virginia for the Period October 1, 2003, Through September 30, 2005,"
(A-03-07-00220)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient Drug
Expenditures in West Virginia for the Period October 1, 2003, Through September
30, 2005," (A-03-07-00220)
June 25, 2008
Complete
Text of Report is available in PDF format (408 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For fiscal years 2004 and 2005, West Virginia claimed
$286,000 in Medicaid reimbursement for a duplicate prior period adjustment and
for prescription drugs that were ineligible for reimbursement.  The
Medicaid drug rebate program generally pays for covered outpatient drugs if
their manufacturers have rebate agreements with Centers for Medicare & Medicaid
Services (CMS) and pay rebates to the States.  Under the drug rebate program,
CMS provides the States with a quarterly Medicaid drug tape, which the States
use to verify coverage of the drugs for which they claim reimbursement.
An additional $2.1 million represented expenditures for
drug products that were not listed on the quarterly drug tapes.  Because the
Department of Health and Human Resources (the State agency) did not verify whether these drugs were eligible for coverage,
these expenditures may not have been allowable.  We identified no other errors
for the remainder of the $808 million ($615 million Federal share) that the
State claimed.
We recommended
that the State (1) refund $286,000 to the Federal Government for a duplicate
prior period adjustment and for drug expenditures that were not eligible for
Medicaid coverage, (2) work with CMS to resolve $2.1 million in payments for
drugs that were not listed on the quarterly drug tapes and that may not have
been eligible for Medicaid coverage, and (3) strengthen internal controls to
ensure that claimed Medicaid drug expenditures comply with Federal
requirements.  The State agreed with our recommendations.